No.

IN THE
SUPREME COURT OF THE UNITED STATES

Richard B. Gustafson
PETITONER
VS.
State of Oregon
RESPONDENT

t

PROOF OF SERVICE
, do declare that on this date,
, as required by
I,
Supreme Court rule 29,1 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party above proceeding or that
party's counsel, and on every other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid.
The names and addresses of those to be served are as follows:
1. Ellen F. Rosenblum: Attorney General
2. Benjamin Gutman: Solicitor General
3. Peenesh H. Shah: Assistant Attorney General
• 400 Justice Building • 1163 Court Street NE • Salem, OR 97301 • (503) 378-4402
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Signature
Writ of Certiorari Proof of Service for A1589489. R.Gustafson 0719390!

RECEIVED
AUG - 5 2020

SaiffiSllgff

